<html>
<title> - COMMERCIAL SPACE TRANSPORTATION REGULATORY REFORM: STAKEHOLDER PERSPECTIVES</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]




    COMMERCIAL SPACE TRANSPORTATION REGULATORY REFORM: STAKEHOLDER 
                              PERSPECTIVES

=======================================================================

                                (115-48)

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                                AVIATION

                                 OF THE

                              COMMITTEE ON
                   TRANSPORTATION AND INFRASTRUCTURE
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             SECOND SESSION

                               __________

                             JUNE 26, 2018

                               __________

                       Printed for the use of the
             Committee on Transportation and Infrastructure




[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]





     Available online at: https://www.govinfo.gov/committee/house-
     transportation?path=/browsecommittee/chamber/house/committee/
                             transportation
                                   ______
		 
                     U.S. GOVERNMENT PUBLISHING OFFICE 
		 
31-577 PDF                WASHINGTON : 2018                 














             COMMITTEE ON TRANSPORTATION AND INFRASTRUCTURE

                  BILL SHUSTER, Pennsylvania, Chairman

DON YOUNG, Alaska                    PETER A. DeFAZIO, Oregon
JOHN J. DUNCAN, Jr., Tennessee,      ELEANOR HOLMES NORTON, District of 
  Vice Chair                         Columbia
FRANK A. LoBIONDO, New Jersey        EDDIE BERNICE JOHNSON, Texas
SAM GRAVES, Missouri                 ELIJAH E. CUMMINGS, Maryland
DUNCAN HUNTER, California            RICK LARSEN, Washington
ERIC A. ``RICK'' CRAWFORD, Arkansas  MICHAEL E. CAPUANO, Massachusetts
LOU BARLETTA, Pennsylvania           GRACE F. NAPOLITANO, California
BOB GIBBS, Ohio                      DANIEL LIPINSKI, Illinois
DANIEL WEBSTER, Florida              STEVE COHEN, Tennessee
JEFF DENHAM, California              ALBIO SIRES, New Jersey
THOMAS MASSIE, Kentucky              JOHN GARAMENDI, California
MARK MEADOWS, North Carolina         HENRY C. ``HANK'' JOHNSON, Jr., 
SCOTT PERRY, Pennsylvania            Georgia
RODNEY DAVIS, Illinois               ANDRE CARSON, Indiana
MARK SANFORD, South Carolina         RICHARD M. NOLAN, Minnesota
ROB WOODALL, Georgia                 DINA TITUS, Nevada
TODD ROKITA, Indiana                 SEAN PATRICK MALONEY, New York
JOHN KATKO, New York                 ELIZABETH H. ESTY, Connecticut, 
BRIAN BABIN, Texas                   Vice Ranking Member
GARRET GRAVES, Louisiana             LOIS FRANKEL, Florida
BARBARA COMSTOCK, Virginia           CHERI BUSTOS, Illinois
DAVID ROUZER, North Carolina         JARED HUFFMAN, California
MIKE BOST, Illinois                  JULIA BROWNLEY, California
RANDY K. WEBER, Sr., Texas           FREDERICA S. WILSON, Florida
DOUG LaMALFA, California             DONALD M. PAYNE, Jr., New Jersey
BRUCE WESTERMAN, Arkansas            ALAN S. LOWENTHAL, California
LLOYD SMUCKER, Pennsylvania          BRENDA L. LAWRENCE, Michigan
PAUL MITCHELL, Michigan              MARK DeSAULNIER, California
JOHN J. FASO, New York               STACEY E. PLASKETT, Virgin Islands
A. DREW FERGUSON IV, Georgia
BRIAN J. MAST, Florida
JASON LEWIS, Minnesota
MIKE GALLAGHER, Wisconsin

                                  (ii)

  


                        Subcommittee on Aviation

                FRANK A. LoBIONDO, New Jersey, Chairman

DON YOUNG, Alaska                    RICK LARSEN, Washington
JOHN J. DUNCAN, Jr., Tennessee       EDDIE BERNICE JOHNSON, Texas
SAM GRAVES, Missouri                 DANIEL LIPINSKI, Illinois
DUNCAN HUNTER, California            ANDRE CARSON, Indiana
BOB GIBBS, Ohio                      CHERI BUSTOS, Illinois
DANIEL WEBSTER, Florida              ELEANOR HOLMES NORTON, District of 
JEFF DENHAM, California              Columbia
THOMAS MASSIE, Kentucky              DINA TITUS, Nevada
MARK MEADOWS, North Carolina         SEAN PATRICK MALONEY, New York
SCOTT PERRY, Pennsylvania            JULIA BROWNLEY, California
RODNEY DAVIS, Illinois               DONALD M. PAYNE, Jr., New Jersey
MARK SANFORD, South Carolina         BRENDA L. LAWRENCE, Michigan
ROB WOODALL, Georgia                 MICHAEL E. CAPUANO, Massachusetts
TODD ROKITA, Indiana                 GRACE F. NAPOLITANO, California
BARBARA COMSTOCK, Virginia           STEVE COHEN, Tennessee
DOUG LaMALFA, California             HENRY C. ``HANK'' JOHNSON, Jr., 
BRUCE WESTERMAN, Arkansas            Georgia
LLOYD SMUCKER, Pennsylvania          RICHARD M. NOLAN, Minnesota
PAUL MITCHELL, Michigan, Vice Chair  PETER A. DeFAZIO, Oregon (Ex 
JASON LEWIS, Minnesota               Officio)
BILL SHUSTER, Pennsylvania (Ex 
Officio)

                                 (iii)


















                                CONTENTS

                                                                   Page

Summary of Subject Matter........................................    vi

                               TESTIMONY

Captain Tim Canoll, President, Air Line Pilots Association, 
  International..................................................     5
Audrey Powers, Deputy General Counsel, Blue Origin...............     5
Caryn Schenewerk, Senior Counsel and Director, Space Flight 
  Policy, SpaceX.................................................     5
Kelly Garehime, Associate General Counsel--Regulatory Affairs, 
  United Launch Alliance, LLC....................................     5

               PREPARED STATEMENTS SUBMITTED BY WITNESSES

Captain Tim Canoll...............................................    38
Audrey Powers....................................................    63
Caryn Schenewerk.................................................    69
Kelly Garehime...................................................    76

                       SUBMISSIONS FOR THE RECORD

White paper by Air Line Pilots Association, International, 
  ``Addressing the Challenges to Aviation from Evolving Space 
  Transportation,'' June 2018, submitted by Hon. Rick Larsen, a 
  Representative in Congress from the State of Washington........    85


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


 
    COMMERCIAL SPACE TRANSPORTATION REGULATORY REFORM: STAKEHOLDER 
                              PERSPECTIVES

                              ----------                              


                         TUESDAY, JUNE 26, 2018

                  House of Representatives,
                          Subcommittee on Aviation,
            Committee on Transportation and Infrastructure,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 10:01 a.m. in 
room 2167, Rayburn House Office Building, Hon. Frank A. 
LoBiondo (Chairman of the subcommittee) presiding.
    Mr. LoBiondo. Good morning. The subcommittee will come to 
order. Without objection, the Chair is authorized to declare a 
recess at any time.
    I would like to thank you all for being here today. We will 
be hearing from representatives of the commercial space 
transportation industry and other airspace users on the Federal 
Aviation Administration's regulatory reform efforts.
    This is the fourth subcommittee hearing we have held over 
the past two Congresses that touched on commercial space 
transportation issues. Over that time, we have come to know and 
understand the commercial space transportation industry better, 
just as you have come to know us a little bit better.
    These past 2 years have been ones of tremendous growth for 
the industry. There have been more FAA-licensed launches in the 
first half of 2018 than there were in all of 2016. Blue Origin 
and SpaceX continue to push the boundaries of launch vehicle 
reusability, while driving down the price of a launch. ULA 
[United Launch Alliance] continues to deliver highly reliable 
launch services to the Federal Government and commercial 
partners. And the industry has a number of exciting new 
vehicles under development, including those that will soon be 
used to transport huge amounts of cargo and the first 
passengers into commercial space. And Rick assures me he is 
going to be on that first run.
    [Laughter.]
    Mr. LoBiondo. I have only scratched the surface when it 
comes to the tremendous game-changing innovation that is 
occurring in this industry. We are poised to reap the benefits 
of these investments that you have made.
    I am particularly impressed by the job that the FAA's 
Office of Commercial Space Transportation, or AST, has done in 
enabling the industry's success. Facing an unprecedented rise 
in the volume and complexity of commercial launches, AST has 
managed to meet its statutory deadlines for each and every 
launch license or permit.
    But AST cannot rest on its laurels, and neither can we. As 
this industry grows and evolves, we must ensure that our 
regulatory structure keeps pace. Every doubling of licensed 
launches cannot mean a doubling of AST staff or budgetary 
resources. What is needed is a more streamlined regulatory 
approach that reduces complication, duplication, and 
uncertainty, while preserving safety and leveraging the 
expertise of the commercial space transportation sector.
    FAA and AST are moving at breakneck speed to achieve the 
deadline imposed by Space Policy Directive-2, something that we 
all hope that they are able to achieve. But we also want to 
continue the discussion on launch and other commercial space 
transportation regulatory reform.
    As launch cadences increase, the impact on other National 
Airspace System--or NAS--users could increase, as well. FAA is 
currently working on different procedures and technologies that 
can integrate commercial space operations into the NAS, rather 
than merely accommodating them.
    One of those technologies, the Space Data Integrator, 
should allow the automated release of airspace back to other 
users once a launch vehicle has passed by. Much of the work on 
SDI is being conducted at the FAA's flagship Technical Center 
in my district in Egg Harbor Township, New Jersey, which, if 
anyone is not sure, is at the Atlantic City International 
Airport.
    We look forward to hearing from our more traditional 
airspace users on additional ways to ensure safety in the NAS.
    I would now like to recognize Mr. Larsen for any opening 
remarks.
    Mr. Larsen. Thank you, Chairman LoBiondo, for calling 
today's hearing on commercial space transportation.
    It has been 2 years since the subcommittee convened a 
hearing on commercial space. And since that time, the U.S. has 
experienced tremendous growth and innovation in the industry. 
The economic footprint of this segment of the aerospace 
industry is significant. According to the FAA, the U.S. space 
industry represents about $158 billion, which is just shy of 
half of the global space economy, estimated at $345 billion, 
according to 2016 figures.
    The U.S. is not alone, however--it is not the only nation 
making significant advances in commercial space. Last year I 
visited the Paris Air Show, where the role of commercial space 
itself was prevalent, as well, and companies across Europe 
represented at the show appeared to be thriving. And New 
Zealand itself is developing its own space industry. So it is 
critical that we ensure the U.S. and its companies remain 
competitive on the international stage in commercial space, 
just as we have done that in traditional aviation for decades.
    Commercial space transportation has opened the door to a 
wide host of new applications for satellite services and space 
research. Some companies are inching closer to providing 
personal space flight. So this is not only exciting from a 
national perspective, but from a local one, as well. This 
growth supports more than 200,000 aerospace jobs across the 
Nation.
    And, notably, more than 136,000 folks who make up the 
aerospace workforce call Washington State home. According to 
the Bureau of Labor Statistics, Washington State employs 
aerospace engineers at 5.7 times the national average, and has 
the highest density of aerospace engineers in the U.S. 
Snohomish County, which is part of the district I represent, is 
home to the State's second largest concentration of aerospace 
jobs, with more than 43,000--nearly 44,000 in aerospace 
manufacturing. And according to our State's department of 
commerce, more than three dozen space-related companies are 
part of Washington State's space cluster, including companies 
represented here today, like Blue Origin, SpaceX, Spaceflight 
Industries, Boeing, and, of course, many others.
    Pioneering innovative research and development in the State 
is driven by two world-class universities and national research 
lab and groundbreaking R&D teams. And in addition, we have 
companies that are NASA suppliers, as well, for the Orion, the 
Starliner, and SpaceX BFR spacecraft. So we have got a lot 
riding on commercial space in Washington State.
    And before I go further, I do want to take the opportunity 
to introduce one of our witnesses, Audrey Powers, who is here 
today to represent Blue Origin in Kent, Washington. Blue Origin 
supports a growing ecosystem of commercial space suppliers and 
manufacturing services in our State and the country and the 
world. So I would like to say welcome to Ms. Powers.
    I can barely see that far, I lost my glasses last year--on 
an airplane, by the way, a very appropriate place for me to 
lose my glasses.
    FAA reports launch licenses are on an upward trend, and are 
expected to continue over the next decade. So since the first 
FAA-licensed launch in 1989 there have been 278 licensed 
commercial space launches. Nearly one-quarter of these have 
occurred in the last 5 years, alone. And in fact, a record 23 
FAA-licensed launches occurred last year.
    It is also vital for our national security for this segment 
of the aerospace industry to remain strong and competitive. The 
promise of commercial space is endless, but safety still must 
remain the number-one priority. The President has directed the 
FAA to overhaul its launch license and reentry regulations in 
an aggressive, 1-year timeframe.
    We have heard from some stakeholders that FAA's regulations 
were drafted 25 years ago and are, in fact, in desperate need 
of a rewrite. But we have also heard from folks who caution 
safety might be compromised if the FAA is forced to 
``streamline'' its regulatory framework in just 12 months.
    It was just 4 months ago this subcommittee convened to 
discuss the state of aviation safety. I mentioned then--and it 
bears repeating now--the U.S. has the safest aviation system in 
the world. And any effort to reform regulations must not roll 
back safety requirements. We have to keep in mind that more 
than 2\1/2\ million passengers fly through U.S. airspace each 
day. With an increasing number of space ports and launches on 
the horizon, we have to ensure our airspace remains safe.
    This subcommittee's job is to ensure the FAA has the 
authority and resources needed to make the system even safer. 
And maintaining our unparalleled safety through new integration 
into the system requires all aviation stakeholders be at the 
table.
    And that said, as well, I am pleased to have Captain Tim 
Canoll, from ALPA [Air Line Pilots Association, International] 
here with us this morning to discuss the potential effects that 
this booming industry is having on existing legacy aviation 
users.
    I also hope to learn from our other witnesses why and what 
reforms to the FAA's commercial space regulations are needed, 
and whether there are concerns regarding the administration's 
approach.
    It is too soon to know what the FAA will propose next year. 
And while flexibility is necessary so the industry can continue 
to grow, I trust the subcommittee will keep a close eye on any 
efforts that undercut safety.
    Again, Mr. Chairman, thank you so much. I look forward to 
hearing from our witnesses.
    And Mr. Chairman, I would ask for unanimous consent that a 
white paper entitled, ``Addressing the Challenges to Aviation 
from Evolving Space Transportation,'' prepared by Air Line 
Pilots Association, International be entered into the record.
    Mr. LoBiondo. Without objection, so ordered.

        [The white paper is on pages 85-99.]

    Mr. Larsen. Thank you, Mr. Chairman.
    Mr. LoBiondo. OK. Thank you, Rick. Let's see, do we have 
Mr. DeFazio?
    Mr. DeFazio. Thank you, Mr. Chairman. Sorry, I was a little 
late. I was at a caucus meeting, talking about the sea lions. 
Far from this subject. A terrestrial problem.
    Well, thank you for holding this hearing, the first in a 
couple of years. Obviously, there is incredible excitement in 
the potential for commercial development in space, and we want 
to maintain the U.S. lead in this area.
    We do also--as I believe I came in at the end of the 
ranking member's remarks--want to be certain that we are moving 
forward in a way that doesn't impinge on creativity and moving 
quickly, but also is as safe as possible.
    There used to be a dual mandate for the FAA that was left 
over from the old Civil Aeronautics Board, an immature 
industry. And it was that they were both to regulate and 
promote the industry. And for years on this committee I raised 
the issue that I thought that there was an inherent conflict. 
And, you know, person after person from the FAA marched in and 
said, no, there is no conflict, no problem.
    And then, in an FAA reauthorization one year, I tried to 
strip away the--I said it is a mature industry, you don't need 
to promote it any more, you just need to regulate it and make 
sure it is safe, and I lost that amendment in the committee by 
a close vote.
    And then we had the--I think--I am trying to remember. I 
guess it was ValuJet, I think was the name of the crash. And we 
had already done the bill out of the House and done the bill 
out of the Senate, and I got a phone call saying, ``Where would 
we put your language into this bill,'' realizing that, indeed, 
we had not been overseeing repair stations and subcontractors 
of repair stations and others adequately, and a lot of people 
died because of it. So, you know, we just need to move forward 
in a way that does not create problems.
    And another issue is we have the largest, most robust 
commercial aviation system in the world, and there are 
potentials for conflicts with space ports and commercial 
aviation. And we have to be very cognizant of that, as we move 
forward. I think there are some great places to put space 
ports. There are others that are in very heavily congested, 
heavily used commercial corridors, which means either that 
space port is going to have very limited opportunities for use, 
or we are going to be causing delays and disruptions of the 
already overloaded commercial system. So this needs to be 
approached with some significant thought and care, as we move 
forward.
    So I really welcome this committee holding this hearing to 
air these and other issues so we can maintain our leadership, 
but do it in a way that also maintains the best of safety, and 
also does not interfere with our very robust commercial 
aviation industry.
    With that, Mr. Chairman, I yield back.
    Mr. LoBiondo. Thank you, Peter. I thank our witnesses for 
being here today. And they are Captain Tim Canoll, the 
president of Air Line Pilots Association, International; Ms. 
Audrey Powers, deputy general counsel for Blue Origin; Ms. 
Caryn Schenewerk, senior counsel for SpaceX; and Ms. Kelly 
Garehime--I hope I got that right--associate general counsel 
for United Launch Alliance.
    Again, thank you for being here today. I ask unanimous 
consent that our witnesses' full statements be included in the 
record.
    Without objection, so ordered.
    I also ask unanimous consent that the record of today's 
hearing remain open until such time as our witnesses have 
provided answers to any questions that may be submitted to them 
for a followup response, and unanimous consent that the record 
remain open for 15 days for additional comments and information 
submitted by Members or witnesses to be included in the record 
of today's hearing.
    Without objection, so ordered.
    Since your written testimony has been made a part of the 
record, the committee requests that you try your best to keep 
your oral remarks to 5 minutes.
    Captain, you are recognized to kick it off.

  TESTIMONY OF CAPTAIN TIM CANOLL, PRESIDENT, AIR LINE PILOTS 
   ASSOCIATION, INTERNATIONAL; AUDREY POWERS, DEPUTY GENERAL 
  COUNSEL, BLUE ORIGIN; CARYN SCHENEWERK, SENIOR COUNSEL AND 
  DIRECTOR, SPACE FLIGHT POLICY, SPACEX; AND KELLY GAREHIME, 
 ASSOCIATE GENERAL COUNSEL--REGULATORY AFFAIRS, UNITED LAUNCH 
                         ALLIANCE, LLC

    Mr. Canoll. Thank you, Chairman LoBiondo, Ranking Member 
Larsen, and Ranking Member DeFazio, and the subcommittee for 
the opportunity to be here today. It is my privilege to 
represent ALPA's more than 60,000 pilots who fly for 34 U.S. 
and Canadian airlines.
    I want to say, thanks to this subcommittee's leadership in 
encouraging collaboration among Government, industry, and 
airspace users, the U.S. airline industry is the safest mode of 
transportation the world has ever known. This safety record has 
helped make commercial aviation a significant economic driver 
in the United States. Safe flying simply equals a strong 
aviation industry and contributes to a solid economy.
    Airline pilots share this subcommittee's commitment to 
safety. ALPA is the largest, nongovernmental aviation safety 
organization in the world. We feel certain--and the facts 
show--that having at least two fully qualified, well-trained, 
and adequately rested pilots in every airliner cockpit has made 
flying safer. ALPA believes that the spirit of collaboration 
this subcommittee helped foster in the U.S. airline industry 
will also allow aviation and space transportation to succeed 
together.
    The future growth of the aerospace industry, both aviation 
and commercial space transportation, relies on safe, 
dependable, and efficient access to the National Airspace 
System, air traffic management, and ground infrastructure. As 
the U.S. airline industry works to meet future passenger and 
shipper demand while space flight operations also increase, the 
aerospace industry must jointly create policies, regulations, 
and procedures to share resources efficiently and, most of all, 
safely.
    We know the work to safely integrate commercial space 
transportation must succeed because space ports are, or plan to 
be, located near some of this country's busiest airports and 
airspace.
    For example, an FAA study of a spacecraft launch and 
reentry at Cape Canaveral in 2013 found that airline flights 
around Jacksonville and Miami air traffic control centers were 
forced to fly as many as 23 minutes longer than on days without 
launch activity. Given the interest in increasing the number 
and scale of spaceflight launches, it is easy to extrapolate 
the tremendous effect that commercial space operations could 
have on the U.S. airline industry, as well as on its 
passengers, cargo shippers, and workers if integration isn't 
managed correctly.
    ALPA has long embraced new technology and innovation. We 
have helped develop and implement some of the important safety 
systems on airliners flying today. ALPA's experience with 
technology and operations in the national airspace makes it 
clear that a comprehensive plan is essential to safely and 
efficiently integrate commercial spaceflight and airline 
operations. Moreover, Congress must provide the FAA with 
adequate funding to develop and execute this plan.
    While the FAA is currently prevented from enacting 
commercial space transportation regulations until 2023, there 
is no reason why the FAA and our industries can't get started 
now on a plan for safe integration. For the moment, commercial 
space operations must continue to take place in segregated 
airspace until we know we can maintain a high level of safety 
for all users following an integration.
    However, Congress can encourage the FAA to get started now 
on providing the more complex analysis, safety oversight, and 
air traffic control services that will be necessary for 
integration. Regulators can also act today to develop 
communication, navigation, and surveillance requirements. 
Regulations must ensure safety in space vehicle design and 
flightcrew qualification training and certification.
    All of this will require the FAA and all stakeholders 
involved in aviation and commercial space transportation to 
communicate and coordinate their efforts. ALPA pilots, who 
offer a deep bench in safety expertise, are ready to assist.
    It is an exciting time to be part of the aerospace 
industry. In just a few years, passenger and cargo aircraft 
will share the national airspace with space tourists and 
unmanned aerial system operators. With this subcommittee's 
continued leadership, ALPA feels confident that the FAA and the 
aerospace industry can work together to achieve this high level 
of safety that Americans expect and, yes, demand from U.S. air 
transportation.
    Thank you very much.
    Mr. LoBiondo. Thank you, Captain.
    Ms. Powers?
    Ms. Powers. Chairman LoBiondo, Ranking Member Larsen, 
Ranking Member DeFazio, and members of the subcommittee, thank 
you for the opportunity to speak before you today on commercial 
space transportation regulatory reform, a topic that Blue 
Origin has been heavily focused on for over 2 years.
    Blue Origin's mission is to enable a future where millions 
of people live and work in space. This vision demands higher 
flight rates, lower cost access to space, and an unwavering 
attention to safety. This can only be achieved with full 
operational reusability of our launch vehicles.
    Our fully reusable New Shepard suborbital launch vehicle 
has flown to space and back eight times, achieving five of 
those flights with the same vehicle in less than 12 months. 
While the booster lands vertically on landing gear, our capsule 
separates from the booster in space, and offers 4 minutes of 
weightlessness before returning for a soft landing on Earth. 
New Shepard traverses the National Airspace System and exceeds 
60,000 feet of altitude within 90 seconds of lift-off, and the 
full flight duration is about 11 minutes.
    Blue Origin also is developing a next generation reusable 
orbital launch vehicle called New Glenn, which will launch 
people and payloads from Cape Canaveral Air Force Station to 
low Earth orbit and beyond.
    Reusable launch vehicles, or RLVs, vary widely in design 
and operation. Some, like New Shepard and New Glenn, launch and 
land vertically, allowing the booster stage to be reused. 
Others launch and land horizontally, while others are high-
altitude balloons.
    Expendable launch vehicles, or ELVs, launch vertically, and 
their booster stage falls into the ocean, never to be used 
again.
    FAA regulates ELVs and RLVs differently. FAA's ELV 
regulations are voluminous and prescriptive. ELV regulations 
identify risk limits that operators must meet, and they define 
how to design, test, and operate the launch vehicle to meet 
those risk limits. FAA promulgated these regulations by 
codifying Air Force requirements for launch vehicle operations 
at Federal ranges. This regulatory approach was not designed 
for the cadence of operations or the new vehicle architectures 
realized in recent years.
    FAA developed an entirely separate set of regulations for 
reusable launch vehicles that are wholly different than FAA's 
ELV regulations. Instead of FAA defining how to design, test, 
manufacture, and operate a vehicle, FAA conducts a performance-
based review of the RLV operator's system safety case. The 
operator identifies hazards and presents appropriate mitigation 
measures for those hazards. In short, the RLV regulations 
impose safety thresholds that an operator must meet, but the 
operator can choose any number of acceptable approaches to meet 
those thresholds.
    Blue Origin operates New Shepard at a private launch site 
under these RLV regulations. While they are outdated and could 
be improved to help increase launch cadence, the RLV 
regulations are the best approach to regulatory oversight that 
currently exist. They promote innovation without compromising 
safety.
    In the case of New Glenn, because it will launch from an 
Air Force facility, it must be authorized by both FAA and the 
Air Force. The Air Force has one set of requirements for all 
launch vehicles. They are the prescriptive requirements that 
FAA used for its ELV model. This means that reusable launch 
vehicle operators lose the benefit of FAA's performance-based 
approach to regulating RLVs, because we must also meet the Air 
Force's prescriptive requirements.
    Blue Origin welcomes the efforts by this administration, 
the National Space Council, FAA, and industry to develop one 
set of regulations applicable to all launch vehicles that are 
flexible, streamlined, and performance-based. The best path 
forward will use FAA's current RLV regulations as a model.
    Space Policy Directive-2 specifically directs the Secretary 
of Transportation to replace prescriptive requirements with 
performance-based criteria. Blue Origin's difficult situation 
at Cape Canaveral shows that this directive cannot be met 
without also addressing the Air Force's prescriptive 
requirements. The administration recognized this need by 
directing that DoD and DOT and NASA coordinate to examine and 
minimize all existing U.S. Government requirements associated 
with activities at Federal ranges.
    The right solution to today's overbearing regulatory 
environment is to review and reform all regulations and 
requirements applicable to launch activities. Blue Origin is 
eager to continue working with Congress, FAA, the Air Force, 
the National Space Council, and industry members to ensure that 
new regulations promote safety above all, while also supporting 
the expansion of commercial efforts and new technologies.
    Thank you again for the opportunity to speak with you 
today, and for your attention to this important matter.
    Mr. LoBiondo. Thank you, Ms. Powers.
    Ms. Schenewerk?
    Ms. Schenewerk. Mr. Chairman, Ranking Member Larsen, 
Ranking Member DeFazio, and members of the committee, thank you 
for the opportunity to address the subcommittee today. I also 
want to thank the FAA for their hard work licensing and 
supporting the industry. On behalf of my more than 6,000 
colleagues at SpaceX, we appreciate your interest in 
modernizing regulations associated with the commercial space 
industry.
    SpaceX's mission is to dramatically improve the 
reliability, safety, and affordability of space transportation. 
Since 2010 we have successfully launched our Falcon 9 rocket 55 
times. And earlier this year, we successfully conducted the 
inaugural mission of the Falcon Heavy rocket.
    Our diverse set of launch customers include NASA, DoD, and 
the broader national security space community, as well as 
commercial satellite operators and allied international 
governments. Commercially, SpaceX is the largest launch 
services provider in the world, with more than 100 missions on 
manifest representing $12 billion in signed contracts.
    Having entered the commercial satellite launch market in 
2012, SpaceX has restored the U.S. as a market leader, 
reversing a troubling trend in American competitiveness. The 
rapid pace of innovation in the U.S. commercial space industry 
is redefining access to space for commercial and Government 
customers. It is also advancing technology, growing the 
economy, and creating new jobs. Given ground-breaking 
technological advances like rocket reusability and the 
expanding scope of commercial space activities, regulatory 
reform is both timely and necessary.
    Despite a record year for U.S. launches, it is important to 
keep in perspective that space launch continues to be a 
relatively small user of the national airspace, compared to 
commercial aviation. While the FAA supports more than 42,000 
commercial airline flights per day, in 2017 there were only 23 
U.S.-licensed launches; 17 of those were SpaceX.
    When we launch, we are in the NAS very briefly. Falcon 9 
crosses 60,000 feet in a quick 90 seconds. After stage 
separation, the rocket reenters the NAS for roughly 1 minute 
prior to landing.
    It is worth noting that commercial space and commercial 
aviation are symbiotic. Many of the satellites we launch are 
key enabling technologies for our aviation colleagues. For 
example, GPS satellites, weather satellites, and communication 
satellites that provide in-flight connectivity.
    Nevertheless, FAA launch licensing regulations, designed 
decades ago, are outdated and unnecessarily onerous. They are 
not reflective of new technologies such as reusable rockets and 
autonomous flight safety systems. For the U.S. to stay at the 
leading edge of space innovation, we must reform these 
regulations in a way that preserves public safety and 
accommodates innovation. We must also optimize use of the NAS.
    I have submitted a detailed written statement with SpaceX's 
recommendations, but I would like to highlight a few key 
initiatives.
    First, SpaceX strongly supports the direction contained in 
Space Directive 2, which calls for the Secretary of 
Transportation to review regulations governing launch and 
reentry. We support the direction to require a single license 
for all types of commercial space launch and reentry 
operations, and we strongly support replacing outdated, 
prescriptive requirements with a performance-based regulatory 
regime for all launch types.
    The transition to performance-based regulations is crucial 
and consistent with sound regulatory policy. I want to 
emphasize that SpaceX is not seeking any change to weaken 
safety requirements. Rather, we are encouraging the adoption of 
new tools and processes to make licensing more efficient for 
both the FAA and launch operators. A performance-based system 
will enable new technologies that will improve safety.
    Second, FAA regulation should allow launch providers to 
receive a single license for multiple launch sites without the 
need to obtain a separate license per site. Currently, we have 
two launch sites in Florida: one at NASA's KSC [Kennedy Space 
Center] and one at Cape Canaveral Air Force Station. Falcon 9 
frequently launches from both sites, which are roughly 3 miles 
apart. Yet if we change sites prior to the mission, we have to 
undertake a license modification process. That is not a 
practical situation.
    In addition, FAA and U.S. Air Force range requirements 
should be harmonized to end conflicting and confusing 
differences. These changes are about process, and will help the 
industry better achieve safety objectives.
    Finally, commercial space launch needs to be better 
integrated into the national airspace. SpaceX is committed to 
working with the FAA and commercial airline operators to 
achieve this goal. Current FAA operations do not use real-time 
information regarding the actual position and trajectory of the 
launch vehicle. In addition, debris propagation software used 
today results in larger volumes of airspace being closed for 
longer periods of time than is necessary.
    We encourage this committee to accelerate FAA's adoption of 
new analytical tracking and display tools that will better 
integrate space and aviation users of the NAS.
    SpaceX is honored to be part of the ongoing process of 
regulatory reform, and looks forward to continuing the 
collaborative effort with the FAA, industry, and Congress.
    Mr. Chairman, thank you again for the opportunity to share 
our views with the committee.
    I look forward to any questions.
    Mr. LoBiondo. Thank you very much.
    Ms. Garehime, you are recognized.
    Ms. Garehime. Chairman LoBiondo, Ranking Member Larsen, 
Ranking Member DeFazio, and members of the subcommittee, thank 
you for the opportunity to appear before you today on behalf of 
United Launch Alliance to discuss regulatory reform and safety.
    ULA is the most successful commercial launch company. Since 
we formed in 2006 we have launched 128 missions with 100 
percent mission success. No other launch company matches that 
record. ULA is the only launch provider certified to meet all 
national security space requirements. For more than a decade we 
have launched nearly every major national security asset and 
NASA mission to orbit. GPS, secure communications, weather 
forecasting, tracking and data relays, and missile warning 
satellites are among the many payloads ULA has delivered to 
space.
    ULA builds and launches the Atlas and Delta families of 
rockets which trace their heritage back to the dawn of the 
space age. John Glenn made his historic trip into orbit aboard 
an Atlas in 1962, and astronauts will be flying on Atlas V 
aboard Boeing's Starliner to the International Space Station as 
part of NASA's commercial crew program. The Atlas and Delta 
family of rockets have enabled science missions to every planet 
in the solar system.
    We are also working to take commercial companies to distant 
destinations. Astrobotic, a commercial lunar logistics company 
in Pittsburgh, recently selected ULA to launch their Peregrine 
lander to the surface of the moon. This will mark the first 
launch of a commercial vehicle to the lunar surface from the 
United States.
    Eighteen of our one hundred and twenty-eight missions to 
date have been commercially licensed through the FAA. Our 
commercial customers cannot afford launch mishaps or 
significant delays. And one of ULA's key differentiators is our 
ability to launch quickly and on time.
    In 2016 we unveiled RapidLaunch, which allows customers to 
go from contract to launch in as little as 3 months. This 
offering would not be possible without help from the FAA. And 
we have successfully worked with the FAA in the past on 
accelerated timelines.
    When Orbital ATK needed ULA to launch the OA-7 cargo 
mission to the International Space Station, the requested 
launch date was within the FAA's allotted 180 days for review 
of a new license application. Thanks to our relationship with 
the FAA and its familiarity with the Atlas V, they expedited 
their review and we successfully launched the mission less than 
6 months after going on contract.
    In the past, FAA AST has lacked adequate resources. But 
Congress acted to rectify that. I would like to thank this 
committee in particular for its work on the FAA Reauthorization 
Act of 2018, which increases AST's authorized budget to more 
than $33 million in 2019, and continues increases in future 
years.
    ULA has been participating in multiple Aviation Rulemaking 
Committees, or ARCs, and continues to engage Congress and the 
administration on safe, commonsense regulatory reform. The 
President, National Space Council, Congress, Department of 
Commerce, and the FAA should be applauded for their efforts to 
empower America's space industry.
    In my written testimony I have provided several 
recommendations that, if implemented, would increase efficiency 
without sacrificing safety.
    In the launch business, when something goes wrong it 
impacts everyone. A worst-case scenario would be loss of life 
resulting from a commercial space launch. The FAA is doing an 
excellent job ensuring public safety in today's regulatory 
environment, and we urge all parties to remain focused on 
safety. Space launch is not the same as driving a car or flying 
a plane. A launch accident that damages a launch facility could 
significantly delay or even halt the Government's ability to 
get critical life-saving assets to space.
    I want to thank this committee for taking an interest in 
this topic, and making sure that licensing and regulatory 
reform are done properly. It is critical to ensuring the United 
States remains the world leader in space.
    Thank you for inviting me to appear today, and I look 
forward to answering any questions.
    Mr. LoBiondo. Thank you all for your testimony.
    Mr. Larsen?
    Mr. Larsen. Thank you, Mr. Chairman. So I want to first 
start with a couple of questions about the process of the 
rulemaking.
    I will start with you, Captain. As we sit here today, do 
you believe that the process in this 1-year timeframe is open 
enough? Is it transparent enough? Are you and other--I guess 
the term is legacy users, someone was using--was talking about 
legacy users of the NAS--do you feel that you have enough both 
insight and input into the 1-year rulemaking process?
    Mr. Canoll. So I have been called worse than legacy. It 
does fit, though.
    So safety is always paramount. And we are never in favor of 
any time restrictions or deadline that could impact safety. 
That being said, if the FAA strives with this committee's 
oversight to include all stakeholders, there are advancements 
that could be made to streamline the current process of 
licensing and permitting. And as it impacts my members, that 
would also streamline, hopefully, the establishment and the 
reduction of the amount of airspace required for these 
launches.
    Mr. Larsen. Yes. Am I hearing in your answer that FAA is 
not including folks?
    Mr. Canoll. So we see--and I think my panel is going to 
probably agree--that more collaboration between my part of the 
industry and their part of the industry is something we could 
all use. And that is not something we are waiting for the FAA 
to do for us; we are organizing ourselves on the aviation side 
right now, in hopes that we can have our collective positions 
all set up for when we get a chance to integrate and talk with 
these operators in a more detailed manner. The FAA can't do 
this by themselves, they are going to have to use all of us to 
go forward here.
    And again, to the deadline, any deadline is something that 
should never violate the actual safety rule. If you are not 
ready, safety-wise, deadline or not, you shouldn't do it.
    Mr. Larsen. Yes. So, Ms. Powers, when we dealt with some 
streamlining on the part 23 regs for general aviation, it took 
a lot longer than 1 year when we attempted that, when the FAA 
attempted that. We did step in a few years ago to kind of push 
the FAA along, but it wasn't--it took a lot longer than 1 year, 
and that was for general aviation.
    Do you think the 1-year timeframe, as aggressive as it is, 
and as supportive as a lot of us would want to be of it, is 
that realistic?
    Ms. Powers. So I have heard stories of that part 23 
rulemaking, and I am not familiar with it specifically. But we 
also in the commercial space industry have seen lengthy 
rulemaking timelines for regulations in the past that have been 
updated.
    I acknowledge that the 1-year timeline is very, very 
aggressive. I think that the formation of the Aviation 
Rulemaking Committee at the beginning of the process was very 
important for FAA to collect information from industry members. 
We were very happy to be involved in that effort.
    We look forward to engaging with the FAA again on this 
matter, and I think it is important to understand that the 1-
year deadline, although very accelerated, the result of that is 
an NPRM----
    Mr. Larsen. Right.
    Ms. Powers [continuing]. A notice of proposed rulemaking. 
So there is potential for lengthy comment periods and reviews 
and back-and-forths, and interim rulemaking after that point. 
So I think that it is left to be determined how long the actual 
process will take in its entirety.
    Mr. Larsen. Yes, thanks.
    Ms. Schenewerk, this is a technological question. So it is 
not that you wouldn't understand it; I may not understand my 
asking of it. Is there a technological difference between an 
ELV and RLV with regards to the performance-based versus the 
prescriptive-based regulation?
    Ms. Schenewerk. Right. So I am a lawyer, not an engineer, 
but I appreciate the question.
    If you don't mind, though, I would like to address one of 
your prior questions related to the regulatory----
    Mr. Larsen. So can you get back to me on that question, 
though?
    Ms. Schenewerk. Certainly.
    Mr. Larsen. Thank you.
    Ms. Schenewerk. So in that regard, the technical difference 
would be your ability to recover the rocket. But that is not 
something that drives the regulatory approach to it. An ELV 
would be a Falcon 9 if we threw the first booster away. The 
Falcon 9 becomes a reusable rocket when we land that first-
stage booster instead of throwing it away after the mission.
    And so it is an increase in the technological capability of 
the vehicle and the operator, but that is not something that 
can't be accommodated by a performance-based regulatory 
approach.
    Mr. Larsen. Yes.
    Ms. Schenewerk. There is not a reason why an ELV should 
take a prescriptive approach, and the same rocket, doing a more 
advanced operation, could operate under a performance-based 
system. They can both operate that way.
    One of the important things, I think, about the regulatory 
reform undertaking that is occurring is that it is not 
addressing the level of safety applied to our vehicles or our 
operations.
    Mr. Larsen. Right.
    Ms. Schenewerk. So we are not talking about a regulatory 
change, a deregulation of the industry in that manner. We are 
talking about the application of a performance-based system, 
where you set the level of safety--one that we are not 
advocating for changing--and then you allow operators to have 
flexibility with regard to the technology that they use and the 
operational constraints that they use to achieve that level of 
safety.
    Mr. Larsen. Yes, OK. So my time is up. And I will have 
other questions if we have a second round. But thank you, Mr. 
Chairman.
    Mr. Woodall [presiding]. The gentleman yields back. The 
gentleman from Ohio, Mr. Gibbs.
    Mr. Gibbs. Thank you, Chairman, and thank you to the panel.
    I guess to everybody on the panel, first of all, I guess 
you talked about all the launches you have had, successful 
launches. I assume that is mostly for putting satellites up. Is 
that correct? That is where your revenue stream is?
    Ms. Garehime. Is the question to me?
    Mr. Gibbs. Yes, it doesn't matter.
    Ms. Garehime. Yes, sure.
    Mr. Gibbs. OK, yes.
    Ms. Garehime. We put all different types of payloads up: 
GPS, secure communications, weather forecasting, tracking and 
data relays, missile warning satellites.
    Mr. Gibbs. OK. What is the tipping point or--I guess for 
commercial human space flight to be economically viable, what 
is kind of the timeline you anticipate?
    Ms. Garehime. So we are on contract for a commercial crew 
launch under the commercial crew program, and we expect to 
bring astronauts to space in the near future.
    Mr. Gibbs. Go ahead.
    Ms. Schenewerk. An exciting opportunity for SpaceX is our 
commercial crew contract with NASA to carry astronauts to the 
International Space Station.
    We are also working towards private passenger carriage, and 
we have folks very interested in that, and in fact, a contract 
to undertake that activity.
    And I think that one of the important parts of our approach 
to the industry is that we leverage the Falcon 9 launch vehicle 
for both commercial satellites, as you indicated, satellite 
carriage, cargo carriage to the International Space Station--we 
are up to about 15 missions with that--and that carries the 
Dragon spacecraft that we also manufacture in-house for 
astronaut carriage, or any other carriage beyond NASA's needs.
    So I think it is a matter of holistic approach to launch, 
which has both the capability to launch satellites and the 
capability to carry humans, and the fact that those are 
integrated together.
    Mr. Gibbs. Now, you said we are still the leader in the 
world. Are our competition--I suppose China or Russia would be 
the two key ones--what is going on, compared to us, what we're 
doing?
    Ms. Schenewerk. Yes, so it is a great question. So when 
SpaceX entered the launch services market, the orbital 
commercial satellite launch services market, in 2012, the 
United States had, essentially, zero percent of that market. So 
we have recaptured 60 percent of that market share. And you are 
exactly right, that that is away from the Russians, also the 
Europeans, the Chinese, and the Indians.
    Mr. Gibbs. Anybody else want to comment on that?
    [No response.]
    Mr. Gibbs. What do you see--do you concur with that, that 
we are--what you see our vulnerabilities are to not be the 
leader in this effort?
    Ms. Garehime. So we are moving towards more commercial 
businesses, absolutely, coming back to the U.S. Our Atlas and 
Delta rockets were originally designed to support the 
commercial market. That market never materialized, and our 
focus turned to Government missions, and 100 percent mission 
success.
    We are now transitioning to be a much more key player in 
the commercial market, and are developing a new rocket, the 
Vulcan Centaur rocket. We expect that to really help us become 
a larger key player in that market.
    Mr. Gibbs. And those are the reusable vehicles, rockets, 
right?
    Ms. Garehime. The Vulcan Centaur is an expendable launch 
vehicle. We are looking at reusability at the component level. 
So we would look at SMART [Sensible, Modular, Autonomous Return 
Technology] reuse, which would be reusing the most expensive 
component on the rocket, which is the engine.
    We are also looking at reusing our upper stage, so that 
means once the upper stage gets up into orbit, usually you 
would dispose of it, either put it into a graveyard orbit or 
deorbit the upper stage. What we are looking at through our 
ACES technology would be leaving the upper stage in orbit, and 
reusing it up in space.
    Ms. Schenewerk. If I may add to that, the Falcon 9 first 
stage is entirely reusable. We have launched and landed the 
Falcon 9 twenty-five times. We have reused 13 of those 
boosters. Our most recent version of the Falcon 9 is the Falcon 
9 Block 5 and it is now flying. We look to be able to use Block 
5 at least 10 times with minor inspection following, and with 
at least 10 reuses of a first-stage booster.
    That is part of the reason why SpaceX has been able to 
recapture 60 percent market share. Because we are able to have 
a highly reliable rocket as a result of that reusability. It 
means that you can test it, you can fly it, you can look at it 
again, then you can fly it again, and so you can keep getting 
really good data on the performance of your vehicle. And it 
also contributes, of course, to the safety of the vehicle.
    Mr. Gibbs. Thank you.
    I am out of time; I yield back.
    Mr. Woodall. The gentleman yields back. The ranking member 
of the full committee, Mr. DeFazio.
    Mr. DeFazio. Thank you, Mr. Chairman.
    Captain Canoll, the whole process for space port approval, 
you have concerns about that. I recently met, I won't say who 
it was, but people raising concerns about the proximity of a 
proposed space port that does not have an operator, which is a 
build-it-and-they-will-come proximate to Denver International 
Airport, and the potential for interference with operations 
there.
    How do you think this process should work better?
    Mr. Canoll. So you articulated both concerns from our 
perspectives. One is the proximity issue either to highly 
congested airspace, or a heavily used airport. The segregated 
airspace methodology, which is the only one available to us 
today to deconflict space travel and aviation, would order of 
magnitude be more difficult at some of the locations like the 
one in Denver being considered.
    The process currently has it as a two-stage process, where 
a space port is authorized, and then the operator at the space 
port is done in a separate authorization. It is hard for ALPA 
to comment on one or the other, without seeing the full picture 
concept. If you are going to launch from this space port, what 
kind of operations are they? Are they RLA? Are there EVAs? What 
kind of rocket will be launched? Is it traditional aircraft 
launched to high altitude?
    So our inability to match the two to one issue is where we 
are running into problems with giving good comments to the FAA 
as they consider these.
    Mr. DeFazio. OK. Now, the segregated airspace, obviously, 
is an issue. And Ms. Schenewerk implied that you envision a 
time where we could either dramatically shrink that, or maybe 
do real-time, more like air traffic control.
    So I would like you to briefly comment, and then Captain 
Canoll to comment on whatever you say.
    Ms. Schenewerk. Absolutely. Thank you for the opportunity. 
So what we see today is that when a rocket launches--and our 
rocket launches, just to provide some context, are from coastal 
areas, because we launch in an orbital trajectory. We are 
achieving orbit in about 90 seconds through the----
    Mr. Woodall. Miss, could I ask you to pull that microphone 
just a little bit closer?
    Ms. Schenewerk. Oh, absolutely.
    Mr. Woodall. Thank you very much.
    Ms. Schenewerk. Is that a little better?
    Mr. Woodall. You can move that whole box closer.
    Ms. Schenewerk. Here we go, OK. Oh, thank you. So as I 
noted, we are through the NAS in about 60 seconds, if 
everything goes as planned.
    So the hazard area that is imposed upon us is a keep-out 
zone. And that keep-out zone is applied in multidimensions, 
right? So it is to people on the ground, it is to aircraft in 
the air, and to mariners at sea. And we launch over the water 
so as to maintain that risk level, so that we are not putting 
public at risk, so it is nonpopulated areas. That is why we 
don't currently undertake orbital launches from the center of 
the country.
    So right now, when an air traffic controller is on station 
during a launch, what they see is that keep-out zone, that 
large box hazard area keep-out zone. What they don't see is the 
launch vehicle actually moving across their scope in that very 
quick timeframe, and clearing the area. And that results in 
that keep-out zone being imposed for at least an hour, usually, 
before launch and hours post-launch, because it is not dynamic.
    So what we would like to see is, some IT tools that can 
better model the debris dispersion that could occur if you were 
to have a bad day with the vehicle, based on that day's 
weather, whether it is wind direction or air density, and that 
specific vehicle and that specific trajectory, so that we could 
see when it moves through it quickly and successfully, we can 
open the airspace dynamically, instead of having phone calls 
and big boxes blocking space.
    This is essentially an IT solution. It is modeling 
capabilities and data integration capabilities.
    Mr. DeFazio. OK. Captain Canoll, what do you think of that 
impression?
    Mr. Canoll. Absolutely correct. Caryn got it exactly right. 
The real-time feedback is something that they are using now in 
very small instances. It needs to be on every launch.
    But the ultimate goal, if we are going to meet the 
anticipated cadence, is full integration. And there is one 
larger issue in full integration that we have to work together 
through as a team, and that is the allowable risk.
    Right now we model in the traditional aviation 10 to the 
minus 9, so catastrophic mishaps, 1 in 1 billion. The space, 
commercial space, is modeling at 1 to the minus 6, 1 in 1 
million. Well, that is a big difference, that is 10,000 times 
bigger. So we have to work through that. It is completely 
doable, it is completely doable, but it is going to take 
starting now, and money, and oversight.
    Mr. DeFazio. OK. Thank you.
    Anybody else want to comment on that particular point?
    Ms. Powers. Yes, sir. I would like to add a couple of 
things.
    I think it is very important that tool development be the 
focus, because we are smart enough to solve this problem. There 
are a lot of great people at AST and FAA working on this. I 
know that SpaceX and Blue Origin have worked on flowing 
telemetry through the SDI system that the chairman mentioned 
earlier to try to figure out how to get real-time telemetry to 
the air traffic controllers to minimize disruptions, so that 
everybody who needs to use the airspace can use the airspace. 
This is a very solvable problem.
    Mr. DeFazio. OK, thank you.
    Thank you, Mr. Chairman.
    Mr. Woodall. The gentleman yields back. The gentleman from 
Indiana, Mr. Rokita.
    Mr. Rokita. I thank the chairman, I thank the witnesses. I 
am learning a lot this morning.
    How wide is the keep-out zone, again? Is that what you call 
it? Yes. How--in miles, nautical miles or statute, what is--
what kind of area are we talking about?
    Ms. Schenewerk. Right. So it is--the hazard area that is 
around the rocket launch, the trajectory--so, essentially, if 
you imagine that I was going to launch from where I am sitting 
today towards Mr. Mitchell's placard there, then I would have 
an area of space that would travel with me that is closed along 
the way, that is a box around me.
    Mr. Rokita. Hundreds and hundreds----
    Ms. Schenewerk. It is essentially a bubble.
    Mr. Rokita [continuing]. Of miles that is boxed out.
    Ms. Schenewerk. So the box travels out hundreds of miles, 
where the rocket--in the direction of the rocket's trajectory. 
But its width is in the--maybe I have to get back to you on 
that one. But it is not thousands or hundreds of miles wide. It 
is more that it is hundreds of miles long with the trajectory 
of the rocket.
    Mr. Rokita. So--and that accounts for debris, or not?
    Ms. Schenewerk. Right. The goal of that is to account for 
the idea that--of debris propagation from that vehicle. So if 
you were to have an unintended disassembly, then where that 
debris would fall from that vehicle----
    Mr. Rokita. So, Captain, how is that different than a line 
of thunderstorms that you might have to get vectored around----
    Mr. Canoll. That is a----
    Mr. Rokita [continuing]. On any given day?
    Mr. Canoll [continuing]. Great analogy, because it is the 
same essential thing, it is denying use of the airspace.
    Mr. Rokita. Right.
    Mr. Canoll. We just don't fly----
    Mr. Rokita. Which you deal with every day.
    Mr. Canoll. We do deal with it every day.
    Mr. Rokita. I dealt with it yesterday.
    Mr. Canoll. Yes.
    Mr. Rokita. So we deal with it. And in fact, weather 
accounts for 72 percent of the delay in the system.
    Mr. Canoll. Right----
    Mr. Rokita. As we learned from another debate on ATC 
privatization.
    Mr. Canoll. The element being there we don't have any 
control of where the thunderstorms are, that is a force of 
nature.
    Mr. Rokita. Right, right.
    Mr. Canoll. This is something we can manage together.
    Mr. Rokita. Right. But we also learned that there is 22 
launches or something from SpaceX alone, versus the thousands 
of air flights a day, and that kind of thing. So certainly many 
more lines of thunderstorms in a given day and a week than any 
kind of space launch.
    Are the three of you--I am looking at the companies--do you 
consider yourselves direct competitors? Especially with your 
change in business plan a little bit.
    Ms. Garehime. We certainly see ourselves as a competitor 
with SpaceX. We partner with Blue Origin. We are working 
together on a new first-stage engine. We haven't made a final 
decision on that yet. So we work with Blue Origin. But yes, we 
see SpaceX as a competitor.
    Mr. Rokita. Do you guys like each other, generally?
    [Laughter.]
    Ms. Garehime. We do.
    Ms. Schenewerk. Lovely people.
    Mr. Rokita. There are so many opportunities that there is 
room for everybody.
    But on the other hand, Ms. Powers, you have 1,400 
employees. Is that right? Or--yes, 1,400 employees, and they 
are all being paid, and you have investors. But you haven't had 
a return on investment yet, have you?
    Ms. Powers. So we have entered into a number of commercial 
contracts. As Kelly mentioned, we are engaged with ULA for 
sales of our BE-4 engine. We have a number of customers that 
are interested in our engine production programs, as well as 
our suborbital and orbital launch capabilities.
    So for--taking New Shepard as the example, our suborbital 
launch vehicle that flies at our west Texas launch site, we 
have a relationship with the NASA flight opportunities program, 
we fly a number of suborbital payloads on every flight of New 
Shepard.
    Mr. Rokita. OK, thank you.
    Ms. Powers. So we are generating some amount of revenue.
    Mr. Rokita. I appreciate that.
    And Ms. Schenewerk, really quick, because I have some 
questions, if you wanted to add something there, you wanted to 
get a word in--OK.
    Ms. Schenewerk. That is fine, no.
    Mr. Rokita. So let's talk about the relicensing process 
example that you brought up, and performance-based regulation. 
That is intriguing, about--to me it seems performance-based 
regulation requires you to have data, in terms of outcome. And 
then it is either failure or success, and that is how you 
measure performance based.
    Go ahead.
    Ms. Schenewerk. Well, that depends on the performance 
metric that you set.
    Mr. Rokita. Yes.
    Ms. Schenewerk. Right? So in the case of this industry, we 
have a performance metric that is a level of safety. So can you 
protect the public to the 10 to the minus 6, which is the 
risk----
    Mr. Rokita. Which the captain brought up.
    Ms. Schenewerk. Right, exactly, which is the flight safety 
analysis that occurs.
    Mr. Rokita. Yes. But you have to fly a bird. You have to 
fly something to get your data, to see if you are meeting that 
metric or not, right?
    The other way of regulating is a prescriptive way. Don't 
fly anything----
    Ms. Schenewerk. Right.
    Mr. Rokita [continuing]. Unless it is done this way. So I 
get that.
    Does ALPA, Captain, believe in performance-based or not?
    Mr. Canoll. Yes, we believe in performance-based risk 
analysis.
    Mr. Rokita. OK.
    Mr. Canoll. And prescriptive is needed in some areas, but 
performance-based works.
    Mr. Rokita. Are you willing to partner with the----
    Mr. Canoll. Absolutely.
    Mr. Rokita. OK.
    Mr. Canoll. Absolutely.
    Mr. Rokita. And then, with regard to NextGen or anything 
else the FAA is doing, do you find that the IT, Ms. Powers, 
that you all kind of referenced, is it being actively engaged 
in? I might have missed this in your testimony. Is it being 
actively engaged with in terms of NextGen or anything else the 
FAA is working on?
    Ms. Powers. Right. So this is an important point. The FAA 
developed an Aviation Rulemaking Committee focused on----
    Mr. Rokita. OK, that is----
    Ms. Powers [continuing]. Integration of the NAS. And one of 
the things they are focusing on very heavily is the development 
of tools like NextGen, SDI, some of the things----
    Mr. Rokita. And, real quick, happy or not with that 
progress so far?
    Ms. Powers. I think the progress is slow. I think they 
could be developed more quickly. I think the resources and 
budgetary constraints are hindering that process.
    Mr. Rokita. Budgetary constraints, it is all about the 
monies.
    Ms. Powers. In many cases.
    Mr. Rokita. There is a lot of money out there.
    Ms. Powers. There is.
    Mr. Rokita. Captain, do you feel the same way?
    Mr. Canoll. I won't comment on the pace, I just want to 
make sure we do it in an order that doesn't violate any of the 
safety rules, and we got to fire out how to reconcile the 
difference in the safety 10 to the minus 6, 10 to the minus 9th 
when we get to that final end stage. We can do it.
    Mr. Rokita. So it is a little bit of a tango on what the 
performance metric will be.
    Mr. Canoll. Correct.
    Mr. Rokita. OK.
    Mr. Canoll. Correct.
    Mr. Rokita. OK, fair enough.
    Thank you, Chairman.
    Mr. Woodall. The gentleman yields back. The gentlelady from 
the District of Columbia, Ms. Holmes Norton.
    Ms. Norton. Thank you, Mr. Chairman. I thank these 
witnesses. This is exciting to hear of the rapid growth of 
commercial space in the transportation industry. And I don't--
nobody wanted to slow it down. But I would like to hear you 
elaborate on this 1-year timeframe for streamlining 
regulations.
    Now, I have been on this committee for a long time. I have 
never seen regulations done within 1 year. And, of course, 
Congress gets impatient with it, but here--and I go--because 
perhaps you elaborated more, Ms. Garehime, perhaps more than 
others, although Captain Canoll has spoken of it, as well. And 
your testimony has a headline that says ``Safety Must Remain 
the Top Priority,'' and I think everybody on this committee 
would agree with it.
    You indicate that--and I am looking directly at your 
testimony--you cite Atlas and Delta vehicles that apparently 
have considerable experience in launching. But you said during 
the--here I am quoting you--``During the regulation 
streamlining process, it has often seemed that the stakeholders 
being given the reins by Government to drive the conversation 
include companies that are very new to the launch market or 
have yet to fly anything in space. These companies may not 
understand how challenging it is to reliably and safely launch 
to space.''
    So I would like to hear your comments on these twin goals, 
streamline regulations and make sure you do it safely, to ask 
you whether you think this can be accomplished. And, indeed, 
any comments you have would, I think, educate the committee we 
hold the industry accountable.
    Ms. Garehime. Thank you for the opportunity. You are right, 
Atlas and Delta are launch vehicles with 100 percent mission 
success, and we think we have the most experience in this 
realm. We are the most reliable launch provider.
    We think, with regard to the ARC process, it has been a 
very beneficial process. We have a lot of collaboration among 
industry, and we all agree--at least through the ARC process--
that the regulations should move to a performance-based 
approach.
    One thing that you mentioned was the timeline. So we have 
concerns that the timeline is so aggressive and now the ARC has 
provided its comments to the FAA and the FAA is off writing the 
regulations, and we understand at this point there won't be 
collaboration between the ARC and the FAA until the notice of 
proposed rulemaking comes out. So we have some concerns there--
--
    Ms. Norton. So what does that do to the timeline?
    Ms. Garehime. What does that do to the timeline? Well, it 
probably--you would have to ask the FAA, but it probably makes 
it easier for the FAA to meet their deadlines without the 
collaboration, because if the ARC and the FAA were working 
together, that may delay the process with industry input.
    But if we wait until the notice of proposed rulemaking 
comes out for industry input through the ARC, our concern at 
ULA is that the regulations don't necessarily address the input 
that we provided through the ARC.
    Ms. Norton. Captain Canoll, you mentioned safety, and I can 
understand that pilots always think of safety first. But that 
may not mean everybody in the industry does. And I wonder what 
you think of this timeline. And if something must be 
sacrificed, what would you sacrifice?
    Mr. Canoll. So, as I mentioned before, that safety is going 
to always take precedence over any timeline that is 
established. There is just no way to avoid that. The FAA needs 
time to do their safety data analysis so that they propose 
rules that they are comfortable meet the safety standard, be it 
in the segregated airspace or in integrated airspace.
    There is just no variance on that. Whether we are sitting 
on the end of the runway, deciding if it is safe to take off 
now with the weather that is on our departure path, again, 
whether it is a scheduled operation with 300 people sitting 
behind you, you always default to the safest course. And if the 
safest course means we are not going to make the 12-month 
deadline, well then, we are just not going to make the 12-month 
deadline.
    Ms. Norton. I very much appreciate that understanding. I 
assume it goes for the entire panel.
    Thank you very much, Mr. Chairman.
    Mr. Woodall. The gentlelady yields back. The gentleman from 
Pennsylvania, General Perry.
    Mr. Perry. Thank you, Mr. Chairman. Thank you, folks, for 
your involvement today. I know we are talking about rules and 
the regulatory process, but I want to kind of look at it from a 
macro sense. And I lament that we have--I think at some point 
we were--at least in my mind--losing in this global competitive 
space market. And I think we have regained a fair amount, but I 
just want to kind of--that is how I want to kind of fashion my 
remarks, or my questions.
    You folks are on the forefront of commercial space 
operation. I am just wondering how is the U.S. space sector 
faring regarding our competition, globally? Are we doing 
better?
    Ms. Schenewerk. Well, so, sir, we are doing better at this 
point, in the sense that if there is 100 percent available, and 
we are capturing 60 percent, that is a lot better than we were 
doing 6, 8, 10 years ago.
    You are right. At one point in the 1980s we had 100 percent 
of that market, and we ceded it.
    Mr. Perry. Right.
    Ms. Schenewerk. And now we are recapturing it. And I think 
that is a source of pride, especially at SpaceX, but 
particularly for the Nation.
    Mr. Perry. Yes, I think it is a source of pride for the 
Nation. And I think us folks in Congress want to make sure we 
don't get in the way, right? We don't want regulations to get 
in the way. But as the Delegate from Washington said, if you 
are in aviation, it is all about safety. I mean that is just 
paramount, right? Nobody wants to, as you said--what was that, 
an unintended----
    Ms. Schenewerk. Disassembly.
    Mr. Perry. Disassembly? That is a fascinating way of 
putting that.
    [Laughter.]
    Mr. Perry. That is interesting. But anyhow, so in that 
vein, we still want to deliver our astronauts to space.
    Ms. Schenewerk. Right.
    Mr. Perry. What is--but you have a vehicle that is ready to 
go, according----
    Ms. Schenewerk. Correct, we are----
    Mr. Perry [continuing]. To your testimony, right? So what 
is the----
    Ms. Schenewerk. We are very excited and honored to be 
partnered with NASA in the commercial crew program to deliver 
NASA astronauts to the International Space Station from U.S. 
soil for the first time since 2011. That vehicle, the Dragon 
spacecraft, the crew version, on the Falcon 9 Block 5--have 
been built, and will be certified to meet NASA's requirements. 
That is a very specific, very high intensity----
    Mr. Perry. Sure.
    Ms. Schenewerk. High, intense--very intense level of 
requirements to meet NASA's safety standards.
    Mr. Perry. And what is the timeline? What can our----
    Ms. Schenewerk. So our first demonstration mission under 
the commercial crew program without crew is later this summer. 
And the second mission is supposed to be in December. And that 
is with two astronauts on board.
    Mr. Perry. And that will go to the International Space 
Station, or that----
    Ms. Schenewerk. Correct.
    Mr. Perry. OK.
    Ms. Schenewerk. We will do a demonstration mission with 
two. Those--and following that, we will be carrying up to four 
NASA astronauts with an FAA-licensed launch for NASA to the 
International Space Station.
    Mr. Perry. OK. What about you folks? You are delivering 
everything without flaw, it sounds like. So when are you 
getting in the game?
    Ms. Garehime. We are in the game.
    Mr. Perry. OK.
    Ms. Garehime. So we also have a commercial crew contract 
with--we are the launch service provider under a NASA prime 
contract. And Boeing is our customer, and will be delivering 
astronauts, and----
    Mr. Perry. Do you have a timeframe?
    Ms. Garehime. We do have a timeframe and we understand NASA 
will be providing an update in the near future.
    Mr. Perry. OK, all right. Do we have primary barriers in 
the United States vis-a-vis China, Russia that are problematic 
that this rulemaking tends to solve, or we are not going to hit 
the mark on that?
    Ms. Schenewerk. What I think that this rulemaking works to 
solve is creating an optimal regulatory regime for the U.S. 
Government to attract launches to the United States.
    So I have been personally contacted by representatives from 
other governments who are interested in learning from us about 
how we are reforming our regulations, because they are 
interested in not starting where we started, which is with the 
Air Force requirements from, you know, 20, 30 years ago, but 
with a modernized, streamlined approach. So like the 
performance-based approach that we are talking about 
implementing here.
    Mr. Perry. What do other governments that are competing--
what do they use?
    Ms. Schenewerk. So most other governments are just starting 
to develop their launch licensing regulatory regimes for----
    Mr. Perry. But the ones that we are----
    Ms. Schenewerk [continuing]. Commercial----
    Mr. Perry [continuing]. Competing with now, the----
    Ms. Schenewerk. So their government--yes. So the--it is 
more like having a government--essentially, government owned 
and operated system. So, as opposed to having a commercial 
licensing regime like we do, under which, you know, SpaceX 
flies predominantly, they have government systems. So it is 
more like being a commercial provider, where the government 
covers your system.
    Mr. Perry. And do they do the same thing--would--I think 
about it as a TFR [temporary flight restriction], but what did 
you call it? What is the terminology?
    Ms. Schenewerk. The hazard area, the coordination with 
their airspace.
    Mr. Perry. You called it something else, like a--it is not 
a no-fly-box, it is a--what----
    Ms. Schenewerk. Well, they issue NOTAMs, notice to airmen--
--
    Mr. Perry. Yes, yes.
    Ms. Schenewerk [continuing]. To implement what is a TFR, a 
temporary flight----
    Mr. Perry. It is a TFR?
    Ms. Schenewerk. Yes, yes.
    Mr. Perry. It is essentially a TFR?
    Ms. Schenewerk. They used to be--yes.
    Mr. Perry. And they use the same thing?
    Ms. Schenewerk. Absolutely.
    Mr. Perry. OK.
    Ms. Schenewerk. Well, I don't--well, actually, I was going 
to say----
    Mr. Perry. Or some----
    Ms. Schenewerk. As far as other governments are concerned, 
I would assume that they are similar. But I am not familiar 
with aviation rules in other nations.
    Mr. Perry. OK. Thank you, Mr. Chairman. Time has expired.
    Mr. Woodall. The gentleman yields back. The gentleman from 
Georgia, Mr. Johnson.
    Mr. Johnson. Thank you, Mr. Chairman. In my home State of 
Georgia there are thousands of aerospace employees working for 
large aerospace corporations that export more than $8.5 billion 
in aerospace products annually.
    Additionally, the Georgia Institute of Technology School of 
Aerospace Engineering is the largest aerospace engineering 
program in the United States, and was ranked third in the 2014 
rankings of the best undergraduate engineering programs by U.S. 
News and World Report.
    Because of our educational institutions, skilled workforce, 
and large manufacturing operations, I believe Georgia is poised 
to become a leader in the space sector if we remain vigilant 
and focused on preparing our workforce. As commercial space 
exploration increases, how will aerospace workforce needs 
change, and what should we be doing to prepare the next 
aerospace workforce?
    Ms. Powers. I will take that. I think what is important is 
there is amazing innovation going on in this industry right 
now. And some of the leading universities, much like Georgia 
Tech, is responsible for training the next generation of 
engineers that will innovate in that way.
    So when we talk about things like reusability and 
alternative architectures, finding the way to enhance the 
safety of these vehicles while driving cost down through 
innovative measures, that has been really, really important for 
this industry, and it will be, going forward. Blue Origin has 
proudly partnered with a number of great engineering 
universities to support those efforts.
    Mr. Canoll. I will add on that we have seen it quite 
dramatically in my profession, in my industry. Commercial 
success entices people to want to go join them. It is exciting, 
it is doing well. There is a career opportunity to be 
productive and add something exciting to the economy and to 
your family and to science, in many cases. It will naturally 
attract the best and the brightest.
    During periods of my industry, when bankruptcies were 
rampant and there was not any commercial success, we had a 
horrible time attracting people to become airline pilots. And 
we are paying for a little bit there right now. Over the last 
10 years, though, it has improved dramatically, and the flight 
schools are full. So I think that is great evidence that if the 
expected commercial success we see from these companies 
happens, they are not going to have any trouble attracting 
people to the industry.
    Mr. Johnson. Thank you. And I will ask this of the panel. 
In your opinion are there any current FAA regulations that are 
inhibiting private-sector growth?
    Ms. Schenewerk. Well, I would say that there are examples 
within the launch-licensing regime, regulatory regime, that is 
inhibiting innovation, and that is the prescriptive approach to 
the expendable launch vehicle regulations in part 415 and 417.
    So if you look at a performance-based approach like we are 
advocating for, and you look at an example like flight safety 
systems, one of the most important aspects of our vehicle, and 
the thing, really, that is the focus of the FAA's regulatory 
approach, if you take a prescriptive approach, and you tell 
industry that this is exactly what to do to be safe, so to 
speak, then you limit innovation that can actually improve 
safety.
    And we see that with the flight safety system that is 
dictated by the current regulations. It takes a traditional 
approach, whereas we, at SpaceX, in partnership with the Air 
Force, have actually moved to what is called an autonomous 
flight safety system, which is a much more responsive approach 
to safety than a traditional flight safety system. And that 
would not have happened under the existing regulations. It 
happened because the Air Force took the initiative to drive 
that. We worked with the Air Force, and then we convinced the 
FAA to accept this other approach, despite the fact that their 
regulations demand a less-safe approach.
    Ms. Powers. And I will add--and I think an important point 
to that--given that the FAA licenses reusable launch vehicles 
differently.
    Blue Origin has been operating its New Shepard system from 
west Texas, and on board that vehicle is an autonomous flight 
safety system that we have used now for 2 years. And we were 
able to move through review of that system and vetting of that 
system with FAA under their reusable launch vehicle regulations 
because the approach of those regulations is not prescriptive. 
They are a system safety review, a performance-based review. 
And that is why we have advocated for using that set of 
regulations as the basis for development of a new set of 
regulations, going forward.
    So there is this dichotomy in the industry where some of us 
have been able to have a little bit of flexibility in 
innovation. And the primary hurdles that we see--back to your 
original question, are there regulations that inhibit 
progress--the process-based regulations, as far as how you move 
through the application process, are very, very difficult for 
the cadence that we are trying to achieve, as launch operators.
    So the 6-month review timeline of a license application, 
when you update something about the vehicle, having to maintain 
that information with the FAA and have them review, sometimes 
starting anew an entire license application. So FAA is a bit 
constrained into how they can move through the licensing 
process because of the existing regulations. And that applies 
to any vehicle architecture. And that is something that we 
focused on very heavily in this ARC effort to update.
    Mr. Johnson. Thank you.
    I have exceeded my time. Thank you, Mr. Chairman.
    Mr. Woodall. The gentleman yields back. The gentleman from 
Arkansas, Mr. Westerman.
    Mr. Westerman. Thank you, Mr. Chairman. Thank you to the 
witnesses.
    NASA says that there are up to 500,000 objects in space 
that are 1 to 10 centimeters in diameter, this water bottle is 
about 6 centimeters in diameter [holding up a water bottle]. 
And then over 20,000 objects that are over 10 centimeters in 
diameter, or roughly larger than the size of a softball, that 
are floating through space. And they also say that space junk 
can reach speeds of about 17,500 miles per hour. And if my math 
is correct, that is 530 times the speed of a .50-caliber 
machinegun bullet. So that is pretty potent objects that are 
flying through the galaxy, or through the atmosphere.
    And I have got a question when you think about safety and 
space travel. Is there a proper regulatory framework to provide 
commercial operators such as yourselves the necessary 
information to track this debris and to keep your launch 
vehicles--and in the future, astronauts--safe in space? And how 
do you coordinate with the Federal Government to track this?
    And I also read that even the space shuttle had damage done 
by pieces of debris the size of paint flecks, and there are 
millions of those floating around in space.
    Ms. Schenewerk. Excellent question, thank you. So in the 
course of undertaking the licensing--licenses that we receive 
from the FAA right now today for launching, we receive what is 
called a COLA, essentially a collision analysis to look for any 
kind of collision that would occur, most importantly, with the 
International Space Station, our permanently manned laboratory 
in space. And that helps us design our trajectories and our 
timing of our launch. It goes to the point that there is only 
so much movement we can have, so sometimes we can't launch on a 
specific day because of this collision avoidance concern. That 
is part of what happens today. And the JSpOC [Joint Space 
Operations Center] actually provides that service, so it comes 
through the Department of Defense.
    There are discussions underway led by the National Space 
Council--and I want to show appreciation for the work in the 
House Committee on Science, Space, and Technology, as well, on 
the space situational awareness piece of legislation that 
Chairman Babin, I believe, plans to move tomorrow. SpaceX 
supports that legislation and the idea of moving that space 
situational awareness service that is provided to launch 
operators, as well as to satellite operators. So our launch 
customers want to know that their satellite is going to be 
entering into an orbit that is safe, and that other things 
won't be colliding with it. Whatever the size may be.
    And that also goes to a point about the bill that is a very 
important one, and that is that we need to improve our 
capability of tracking. So one of the ideas behind the 
legislation that we certainly think is very important is 
improving the fidelity of the information that we receive so 
that it is more actionable for operators, be that satellite 
operators who might need to expend vital fuels, moving their 
satellites to avoid debris in space, or launch operators who 
are looking to book launch windows that perhaps don't disrupt 
the NAS quite as much.
    Mr. Westerman. Would anybody else like to address that?
    Ms. Powers. Well, I think this is a very important topic, 
and I echo many of Caryn's comments. The Department of Defense 
has provided this service for the industry for a long time. And 
looking at the increase in commercial activities in space, it 
is certainly understandable that we revisit whether DoD is the 
right person to be providing that service for all of industry 
any more.
    And we also support the efforts to move a lot of that 
capability to the Department of Commerce. Certainly the 
existing tools and infrastructure that are in place will still 
be relied upon and, hopefully, improved to make the entire 
system more safe as we increase the number of objects that are 
in space. So----
    Mr. Westerman. Yes. So as we put more objects in space, 
that lends you to think there is going to be more space debris 
over time. Are there activities being taken to reduce the 
amount of space debris, and also any efforts to clean up some 
of the space debris?
    Ms. Schenewerk. So as far as reducing or containing the 
amount of space debris, when we launch to orbit, be it with our 
second-stage vehicle that is delivering a payload, or if we are 
going to be operating, for example, a constellation of 
satellites in orbit, there are requirements in the licensing of 
the launch vehicle, as well as operating spacecraft in orbit 
that go to orbital debris propagation, so their ability to 
protect against, as you indicated, debris in space causing a 
catastrophic event to that spacecraft, as well as any kind of 
propagation of debris.
    So, for example, at SpaceX we often deorbit our second 
stage, or we move the second stage into a safe parking orbit. 
That is part of the licensing regime. So the license regime 
looks at the safety of the public through the NAS. But in that 
regard, with the vehicle itself, it looks to the space safety, 
as well. And I will assure you that SpaceX is certainly very 
interested in preserving the space environment, as we not only 
want to launch our own constellation, we want to launch 
customers, and we want them to all be able to operate safely in 
space.
    Mr. Westerman. Out of time, Mr. Chairman.
    Mr. Woodall. The gentleman yields back. The gentlelady from 
Nevada, Ms. Titus.
    Ms. Titus. Thank you very much. A lot of my technical 
questions have been asked and answered, but I would just like 
to continue with this notion of how crowded space is getting, 
and not just with this trash that is floating around.
    If you look at our airspace, now you got more small 
regional airlines, you have got more international flights that 
can travel longer, you have got open skies, you have got the 
UAV [unmanned aerial vehicle] industry that is out there, we 
have got a possible creation now the President has talked about 
a space force, and now this commercial space industry.
    I am wondering, if you move from accommodation to 
integration, are all of these people at the table with the FAA, 
which tends to be very slow and hidebound anyway, or are you 
just operating in silos and then we are going to have to put it 
all together somewhere down the road?
    Mr. Canoll. So, in the instance of the NextGen Advisory 
Committee, most representatives--I do not believe there is a 
commercial space operator on the NextGen Advisory Committee. 
ALPA is a member of the NextGen Advisory Committee. The Drone 
Advisory Committee is another one where we have good 
representation, but I don't think it is all-encompassing. And 
Commercial Space Transportation Advisory Committee, ALPA is not 
a member of that.
    A lot of the issues solved in this--and you are absolutely 
correct, it is a finite resource, the national airspace--that 
we need to find ways to accommodate all these users. We just 
have to. And, technologically speaking, there are ways to do 
it. But it is going to take all the players to be in the same 
room.
    So we would urge to expand the cross-section on the NextGen 
Advisory Committee, the Drone Advisory Committee, and the 
Commercial Space Transportation Advisory Committee, to include 
all the players.
    Ms. Titus. Did you all hear that?
    Ms. Powers. I think those are great points. I will 
highlight that the Aviation Rulemaking Committee focused on 
national aerospace issues and integrations and space ports. 
That seems to be an effort to engage a lot of these interests 
that have not previously been on the same panels together.
    So that seems to be the one recent effort that does the 
best job of bringing all of these interests in to collaborate 
on some of these issues.
    Ms. Schenewerk. And I will add that the Federal Advisory 
Committee, the FACA for commercial space, the COMSTAC, the 
Commercial Space Transportation Advisory Committee, was 
recently reinstituted, and it includes not only, I think, 
stakeholders from every aspect of the aviation industry, but 
was actually reconstituted with aviation members for the first 
time.
    Ms. Titus. That is good. My other question is it is called 
commercial space transportation activities, and yet what I have 
heard you all say is you have contracts with NASA to take some 
astronauts to the International Space Station, you depend on 
the Department of Defense for tracking the trash that is out 
there, you work with the Air Force. What are you doing 
commercially? What are you doing in the private sector? Is this 
for tourism, is it for scientific research, is it for 
communications, is it just because you can fly out there and 
want to prove it? What are some of the commercial applications 
you anticipate?
    Ms. Schenewerk. Well, I will point out that our ranking 
member today noted that there are $158 billion of space 
investments occurring on an annual basis. And the majority of 
those are actually satellite-related. So satellite 
manufacturing, satellite operations. So DIRECTV, 
communications, the Wi-Fi on board your flight across the 
country, all of those kinds of applications that we see, in 
addition to the Government applications that you noted.
    So the majority of SpaceX's contracts are actually 
commercial contracts. They are to launch those satellites, the 
commercial satellites that provide those services for 
commercial entities to space. So while we do provide launch 
services to the U.S. Government, one of the things that is 
notable about the way that we provide those services is that we 
provide them under a firm, fixed-price contract. And that is a 
commercial-like contract. So that is why you hear commercial 
space talked about even with regard to NASA, like the 
commercial crew program, or the commercial transportation 
program for delivering cargo to the space station. It is 
because those are conducted under commercial-like contracts.
    But it is important to know that we had 18 launches at 
SpaceX last year, 17 of those were FAA-licensed as commercial-
style launches. And the majority of those were for commercial 
customers, non-U.S. Government customers.
    Ms. Garehime. Right now ULA does work with the FAA for 
commercial--like Caryn was saying, commercially licensed 
contracts. In the past we have worked with various companies--
Digital Globe, EchoStar, the Cygnus missions--I am sorry, not 
Cygnus, it is--the name is escaping me. But we have had 
strictly commercial missions. Right now we--our commercial 
missions are--have Government end customers. But again, our 
fixed-price contract is licensed through the FAA.
    And then, looking forward, we expect to have more 
commercial missions with, for example, Astrobotic, which has a 
lunar lander that--it is planning to launch in the 2020 
timeframe.
    So the different launch services really vary across the 
board.
    Ms. Powers. And I will add from Blue Origin's perspective. 
Every example that you provided of a commercial endeavor are 
ones that we are currently undertaking and pursuing. So we have 
private research interests whose payloads we are launching on 
every New Shepard flight. We also--I mentioned our 
collaboration with NASA, so we are launching payloads with 
Government interests, too.
    We are very, very methodically and rapidly moving towards a 
day when we will fly private astronauts to space. So we 
certainly envision a day, not just on our New Shepard program, 
but also on our New Glenn orbital vehicle program that we are 
developing, where we will fly commercial satellites, we will 
fly commercial research payloads, as well as Government 
payloads, as well, and Government satellites, as well as 
people. So Government astronauts, private actors. We approach 
this as we are providing a commercial service, a commercial 
launch service, to whatever type of customer might be out there 
wanting to get to space.
    So our approach is we are not providing Government launches 
when we have a Government payload on board; we are providing 
commercial services to a Government customer, a private 
customer, a commercial business entity. So we hope to cover the 
entire scope that you mention in your question.
    Ms. Titus. Well, let's promote tourism. I am from Las 
Vegas, we always believe in tourism. Thank you.
    Mr. Woodall. The gentlelady yields back. The gentlelady 
from Michigan, Mrs. Lawrence.
    Mrs. Lawrence. Thank you. Panel, I have a very strong 
passion for workforce issues. Today every industry is facing 
challenges for a skilled workforce. Standards of education, 
barrier to entry, lack of collaborations between public and the 
private sector, racial and gender diversity are just a few of 
the factors that impact our workforce.
    In the next 10 to 15 years it is estimated that the size of 
the global space economy will nearly double. To meet such 
needs, the workforce also has to grow. So what do you believe 
we need to do to ensure that we have a workforce equipped to 
manage the future commercial space transportation venues and 
projects. I have been in contact with the--worked closely with 
the pilots, knowing there is a critical need now for pilots in 
the commercial arena. And now we are talking about the space 
arena.
    So please comment. I will start with you, Captain. What--
when we start elevating--and this all sounds good, and we get 
the laws and the plans. Will we have the workforce ready to 
step in and do the work?
    Mr. Canoll. So I completely agree. We have to have a long 
vision here to understand how we are going to do it. And not 
everyone is suited for the same job. The aptitude for becoming 
an aerospace engineer is different than an aptitude for 
becoming a pilot. Someone has to desire it, as well.
    To my earlier point, success breeds desire from those who 
look at the industry that they are beginning to really grow at 
a rapid rate now will breed success and those will want to be 
part of it. But there are challenges in making sure everyone 
has an equal opportunity here.
    Currently, we do have a dip in the availability of pilots, 
due to the factors I mentioned earlier, where, for example, the 
industry was doing very poorly, and I personally took a 42-
percent pay cut, lost my retirement. My benefits were slashed. 
We have built back, and people are starting to come back to the 
industry, but still, only 6 percent of airline pilots are women 
in this country. That has got to be addressed.
    So we are taking efforts to ensure at even the primary 
school level, that our association is out there, visiting 
thousands of schools every year, making sure that the guidance 
counselors and the kids are exposed to aviation as a potential 
career early on, so that they find out if they have the 
aptitude and they want to join this.
    And I would urge our friends from commercial space to do 
the same thing. There is a natural attractiveness to commercial 
space. I mean it is the Buck Rogers effect. People are going to 
want to do it. That doesn't mean you are going to get the 
cross-section from society that you really need to do it.
    Mrs. Lawrence. Yes, Ms. Powers.
    Ms. Powers. Well, you have touched on something that I am 
personally very passionate about, and I am proud to say that 
Blue Origin has a great interest in this, as well. I was an 
engineer for a long time before I became a lawyer. So something 
that I have great interest in is making sure that I personally 
and Blue Origin, as a company, supports STEM efforts for young 
children in grade school and high school.
    We have a number of outreach efforts that many Blue Origin 
employees are engaged in to make sure that young children and 
high school students have the opportunity to be exposed to 
science and technology and engineering, regardless of their 
gender, regardless of their race, regardless of their socio-
economic status.
    Mrs. Lawrence. Thank you.
    Ms. Powers. This is very important to us.
    And the other thing that I am very proud to talk about as 
far as Blue Origin's efforts is we have an amazing university 
outreach program that organizes a number of women's and 
diversity initiatives. We have events on our campus in Seattle, 
where we invite women of college age to come and interact with 
our engineers and learn about the work that we do at Blue 
Origin, and to support tech careers in technology and 
engineering. And we very proudly partner with some of the 
Michigan universities, too.
    Mrs. Lawrence. And the next two comments, could you just 
tell me also--because we talk about the engineers, but there is 
a whole workforce that is needed that is not an engineer, it is 
the skilled trades, like your electronic technicians, your 
computer programmers. And this is a work group that we know is 
the--growing and the most abandoned right now workforce, 
because if you do not go to college, there is still an amazing 
amount of opportunities in skilled trades. Will you please talk 
to that?
    And I just want to say, Ms. Powers, thank you for saying 
socio-economics. Because a child is not in this elitist zip 
code does not mean that child does not have the capacity nor 
the dream to enter into the commercial space industry. And 
frankly, because the baby boomers are dropping off and this 
industry is growing, we are going to have to look past our bias 
that if you are poor you don't belong in this industry. And 
women have traditionally been bypassed. So thank you for that.
    Ms. Schenewerk. And Representative Lawrence, I want to 
point out that the child that you are speaking of that might 
come from that socio-economic background that is a little bit 
more challenging could grow up to be one of the technicians 
that we depend upon at SpaceX. You know, I am very honored to 
be part of a 6,000-strong workforce that does include 
engineers, but that heavily relies on technicians that come 
from a whole host of backgrounds.
    So today that means that we hire folks that were working in 
the house-building industry, maybe the automotive industry, and 
we bring them in and we train them to work in aerospace because 
when we started building this company, there weren't exactly 
dozens and dozens of aerospace-trained engineers and 
technicians who were looking to start at a new startup company 
that was wanting to be as innovative as SpaceX is. And so we 
are very honored to have those very important members of our 
team.
    I am also honored to work for the president of our company, 
Gwynne Shotwell, who works tirelessly to promote women's 
engagement in the aerospace industry, and also honored to be 
part of various interest groups within the company. So while we 
work external to the company to promote these interests, we 
also have really good, strong support networks within our 
company that we understand are vital to maintaining that 
workforce internally, and also to then promote our efforts 
externally.
    Mrs. Lawrence. Thank you.
    Mr. Woodall. The gentlelady yields back. While we have all 
of this expertise gathered in one place, with your indulgence, 
we would like to pursue it. I would like to yield to a second 
round.
    The gentleman from Washington, Mr. Larsen.
    Mr. Larsen. Thank you, Mr. Chairman. I want to go back to 
something Ms. Powers said nearly an hour and a half ago, I 
guess, and it was about the use--the DoD site, and then--and 
therefore, the requirement that you have to use USAF 
requirements, even if you have an RLV.
    And so the question is then why did you use it? And second, 
you know, must you use it? And third, what would be the 
alternative if the requirements didn't change?
    Ms. Powers. And, I am sorry, why did we use the----
    Mr. Larsen. You said you--no, the--because you used a 
Federal range, you had to do the prescriptive----
    Ms. Powers. Right.
    Mr. Larsen [continuing]. Rules, even though you are using 
an RLV.
    Ms. Powers. Right.
    Mr. Larsen. Yes.
    Ms. Powers. Why did we go to a Federal range?
    Mr. Larsen. Yes.
    Ms. Powers. Yes. So there is--I think probably secret to no 
one, there is an amazing legacy that exists at our Federal 
ranges. There are folks working for the Space Wings that have a 
great deal of expertise in this area. And we saw it as a 
benefit not just from existing infrastructure that was already 
there--there are launch pads and launch sites where we had the 
opportunity to either refurbish or build new structures, 
relying on the infrastructure that already existed.
    We definitely have brought a commercial approach to that 
relationship, and this is where we see the struggle with the 
prescriptive requirements in many ways, whether it is building 
infrastructure or launching and returning a vehicle to that 
location.
    So it was definitely a cost-benefit analysis, and we 
decided that we had an opportunity to go to a Federal range and 
rely on some of that amazing legacy expertise and 
infrastructure and the support that they could bring our 
program, while also progressing that model forward to be 
accepting of a more modernized, commercial approach in some 
ways.
    So we see it as a system that can progress the same way 
that the administration has directed----
    Mr. Larsen. Yes. So----
    Ms. Powers [continuing]. That the Air Force progress.
    Mr. Larsen. So if, as the numbers show, the commercial 
launches out of the U.S. are going to increase, does that 
become less of an incentive as the numbers increase to use 
Federal ranges?
    Ms. Powers. To use----
    Mr. Larsen. Or is it more of an incentive?
    Ms. Powers. Well, I will say, given that we also have the 
experience of flying New Shepard at a private launch site, we 
enjoy a lot of flexibility at our private launch site that we 
don't see at Cape Canaveral.
    And we feel that we have succeeded at setting up a vehicle 
that operates very safely from a public safety perspective at 
our west Texas launch site, and there are a lot of benefits to 
operating from a private site. And I think we have seen, with 
the increase in the number of space ports in any number of 
locations around this country, that other actors might be 
behaving in the same way.
    Mr. Larsen. Yes. Ms. Schenewerk, do you have a comment on 
that?
    Ms. Schenewerk. Sure. One of the comments that I would like 
to make about being on a Federal range versus being on a non-
Federal range--and we are on both about 3 miles apart from each 
other--is that when we operate with the Air Force, one of the 
benefits is the Air Force's ability to update its requirements 
with some level of regularity and ease that does not exist to 
rules that are written in the Federal Register and subject to 
the Administrative Procedures Act.
    So what we see as being----
    Mr. Larsen. Some would see that as--for some things, yes.
    Ms. Schenewerk. So for one of that actually drives one of 
the recommendations that we have with regard to the FAA 
rulemaking process, which is to create a performance-based 
approach, but then move--you could move some of the things that 
are prescriptive in the ELV regulations to guidance or to 
advisory circulars that could be updated more regularly, and 
then you could accommodate these operations under two different 
authorities in a much more streamlined manner, and they could 
keep pace with each other much better.
    Mr. Larsen. Yes.
    Ms. Garehime, do you have a thought on this, as well?
    Ms. Garehime. Well, ULA operates at the Federal ranges.
    Mr. Larsen. Yes.
    Ms. Garehime. Only at the Federal ranges. So no real 
comment there.
    Mr. Larsen. So--OK, that is fine. That is fine. It is about 
10 members of this committee that are also on the House Armed 
Services Committee, and it might be time for the 10 of us to--
probably past time for the 10 of us to maybe sit down as a 
group amongst ourselves and brainstorm this cross-over between 
DOT and DoD.
    Can I get some clarification on the use of the NAS for 
launches that--generally, do each of you believe that the 
technology is progressing and we have the people to narrow the 
amount of space that we absolutely have to use for commercial 
launches to address some of the issues about conflict in the 
NAS? Generally?
    Ms. Powers. I think we absolutely do at this time. There 
have been a number of initiatives in the past, some of them 
mentioned today----
    Mr. Larsen. OK.
    Ms. Powers [continuing]. That just really need to be 
finalized, right? So we have practiced and achieved flowing 
telemetry from flying space vehicles into the data center in 
New Jersey. And the final piece is getting those integrated 
into the air traffic system so that air traffic controllers can 
actually rely on that data.
    Mr. Larsen. Yes.
    Mr. Canoll. Yes, I agree. I think the real-time data will 
allow us to shrink the airspace that we have to segregate.
    The next step after that--because that will limit it to a 
certain point--is the actual integration, so there isn't 
segregated airspace. They are operating with us.
    Mr. Larsen. Right.
    Mr. Canoll. That is where we run into the problem of 
adopting a 10 to the minus 9 or 10 to the minus 6. There is the 
challenge, scientifically.
    Mr. Larsen. Yes.
    Ms. Schenewerk. In that regard, my understanding is that we 
are years out from this if we don't expedite that approach 
soon. So right now there are folks within the NextGen office 
who are looking at how to design those. They have been running 
some test cases and designing some tests of this capability. 
They have some designs. But there is a next level of 
procurement that needs to occur, and then an integration 
testing and verification that needs to occur. I have been told 
that that could be as long as 7 years.
    Mr. Larsen. Yes. Ms. Garehime?
    Ms. Garehime. We are just becoming part of this 
conversation through the airspace integration ARC, and I think 
there is a lot of education that needs to be done on both 
sides. We just participated in the ARC committee meeting where 
we learned the airlines' perspective, and we have agreed to 
give a similar presentation back to the airlines, so that they 
can better understand why do we have these long launch windows 
like some of the other panelists have discussed.
    So I think there is a lot of work that needs to be done, 
and we are doing that through the ARC.
    Mr. Larsen. OK. If the chairman will indulge me--thank you.
    So Captain Canoll testified earlier about the presence of 
the moratorium until--is it 2023? On a lot of what the FAA can 
do, but there are some exceptions.
    But yet your argument, Captain, is that it doesn't prevent 
the FAA from working on these issues that it might be able to 
bring folks together outside of regulation because there are 
outstanding issues that need to get addressed. Is that 
generally what you----
    Mr. Canoll. Absolutely. We shouldn't wait to 2023 and begin 
the process. We can start right now. As a matter of fact, we 
must start right now if we want a nice set of comprehensive, 
safe procedures and rules for us to jointly operate in the 
national airspace. We have to start right now.
    Mr. Larsen. Well, I think we have to clear the room after 
we are done with the hearing, but maybe you guys could meet out 
in the hall.
    Mr. Canoll. I am willing. I got the rest of the----
    Mr. Larsen. It is that urgent. Do the rest of the panelists 
believe the same, you don't need to be waiting for the 
moratorium to lift, because----
    Ms. Schenewerk. So----
    Mr. Larsen [continuing]. And my personal view--this is kind 
of a classic thing, where Congress will come to 2022 and say, 
``Let's extend it for about 5 more years,'' which may be a good 
idea and may be a bad idea. But it is a matter of work having 
to get done being stymied by a moratorium that may not be 
necessary at the time, so----
    Ms. Powers. I think it is important to clarify that that 
moratorium is applicable to passenger safety. So human 
astronaut----
    Mr. Larsen. Yes.
    Ms. Powers [continuing]. Safety on board the vehicle.
    Mr. Larsen. OK.
    Ms. Powers. The airspace issues, those are within the realm 
of the public safety efforts that are ongoing. So there is just 
a little bit of a difference there.
    Mr. Larsen. Sure.
    Ms. Schenewerk. Yes, that is a very important point of 
clarification, and I think a misconception about this learning 
period.
    The FAA regulates our activities for public safety so that 
is to prevent harm to any people or Government property on the 
ground or in the air or at sea. So it is regulated for that 
safety aspect. This question of the learning period 
specifically has to do with carrying human space flight 
participants on board a spacecraft.
    So as far as the public is concerned, the difference 
between having a human on board and having a satellite on board 
is--it is the same level of safety to protect the uninvolved 
public.
    I will also point out that many of us that are engaged in 
carrying human space flight participants, we are doing so at 
SpaceX in collaboration with NASA. So we are building our 
Dragon spacecraft to meet NASA human space flight requirements, 
and to achieve their certification level. So that is a 
significant level of what you could otherwise call regulation, 
but because it is NASA it is requirements that go to the design 
and build and operation of that vehicle.
    Mr. Larsen. Right, right.
    Ms. Garehime?
    Ms. Garehime. We think it is time to start the discussion 
about ending the moratorium.
    Mr. Larsen. Yes, OK, great. So thanks.
    In closing, I would like you all--and I invite the 
subcommittee, if it is possible--to come back and report in a 
year, once the FAA has issued its proposed rule. Clearly, there 
is still a lot of opportunity to ensure the continued growth 
and success of the commercial space industry, but being mindful 
of the safety mandate.
    And I would be interested in hearing from all of you before 
then, as well, but--on what the FAA's proposal seems to address 
and what requirements might need further evaluation and time to 
work through.
    So thank you, and thank you, Mr. Chairman. I yield back.
    Mr. Woodall. The gentleman yields back.
    Captain, I was looking at the enthusiasm on your face when 
you were talking about your Buck Rogers moment there. I don't 
know how many folks that reference might have been lost on, it 
is becoming more and more dated.
    Mr. Canoll. Legacy reference, sorry about that.
    [Laughter.]
    Mr. Woodall. Folks are excited, though. I have got a letter 
here from all 14 Georgia congressmen promoting a space port 
down in Camden County. As you may know, we don't have any folks 
committed to flying out of there yet, though we would love to 
share that with the folks who are interested. But that kind of 
enthusiasm is driving a lot of these discussions.
    I saw in your testimony your concern that commenting before 
you know how a facility is going to be used makes it a little 
more difficult to comment. Distinguish for me, thinking about a 
legacy reference, if I am thinking about BQK, our little 
Brunswick Glynn County Airport down there on the coast, we can 
come and expand that airport's purpose many times over many 
years, separate comment period for each expansion down there, 
lots of opportunity for folks to get involved. How are we 
disadvantaging American airspace with commenting before we 
understand an intended purpose for a space port, rather than 
after?
    Mr. Canoll. So I don't think I want to use the word 
``disadvantaging,'' because someone is going to use the 
airspace for their benefit, be it unmanned aircraft system or 
be it commercial space transportation. Someone is going to use 
it. It is a matter of fairness in who got displaced so we can 
do it.
    Mr. Woodall. OK.
    Mr. Canoll. Short of our implementation, or integration, 
complete integration, we are still stuck with this, well, we 
have to displace the users while we launch. OK? Even for a 
short period.
    And if you take the south Georgia proposal, the issue there 
is while there isn't a lot of local traffic, except for maybe 
Savannah nearby, Jacksonville just to the south, there is a 
tremendous amount of north-south overhead traffic transiting up 
and down the east coast. And if you were to look at the 
FlightAware diagrams, you would see that.
    So the concept in that instance would be, OK, we are going 
to authorize the space port, but we really don't know what it 
is going to do--to your point--until we see what the operator 
intends to fly out of the space port. So it is a little 
disconnected right now. We think, you know, a joint 
application, so you could see the whole picture when making 
comments as to the impact, not only from a safety perspective, 
but from the economic perspective for my members to have access 
to the airspace that they need to earn their income.
    Mr. Woodall. It certainly makes sense, limited resource, 
understand the impact on other potential users of the resource.
    From the commercial perspective, you would agree with the 
captain, that we should understand what the use of a space port 
would be before we initially license it, or that we are 
advantaged by licensing first and understanding utilization 
later?
    Ms. Schenewerk. So one of the things that I would like to 
point out about this--and this isn't an agreement or a 
disagreement--is that when a space port puts forward its 
application, my understanding is they have to--and I have not 
undertaken this effort, but this is my understanding--is that 
they have to put forward types of vehicles and types of 
trajectories that would be launching from that site. But that 
is separate and apart from the actual launch license that an 
entity would have to get to even be able to operate from that 
site.
    So if you are going to have a space port and a licensed 
space port that is going to be a multiuser space port, that 
space port can get a license that covers the idea that you 
would have activities there. But any operator of a launch 
vehicle or a reentry vehicle is going to have to go and acquire 
a separate license covering their specific activities, their 
kinds of trajectories, their kind of vehicle, and their kinds 
of operations from that site.
    Mr. Woodall. Now, understanding that Congress is sometimes 
slow and delay is often the norm, as Mr. Larsen just 
referenced, help me understand when--if we are setting 
deadlines, of when the synthesized airspace should occur, the 
day we leave blocked space, and we have a synthesized system. 
Your expectation as experts in the field is that that date is 
when? When are we prepared, as an industry, even if we are not 
yet prepared as regulators?
    Ms. Schenewerk. For the--clarification. For the NAS 
integration tools that we are looking at?
    Mr. Woodall. That is right.
    Ms. Schenewerk. Yes. So we are prepared to work today--we 
already are, actually, through the Space Data Integrator--to 
provide our trajectory data directly to the FAA to be 
integrated into a tool that could show a controller our vehicle 
on the scope as it moves through the NAS. So that is something 
that we are eager to engage in today.
    I think that our understanding is that the timeframe is a 
little further out, due to the testing and procurement and 
integration schedule that is part of the FAA process. But as 
far as SpaceX is concerned, we would happily build that tool 
together and provide that information today.
    Mr. Woodall. Captain, as one who represents all the other 
users of the airspace today, are--do you feel like we are 
prepared to move in that----
    Mr. Canoll. We are certainly getting closer. There are 
other tools that will be needed to actually make it a reality. 
It is a great enhancement to have the real-time data of the 
space vehicle transiting the national airspace.
    But the controller not only has to go through training, and 
has to be tested, and has to be verified, there is a slight 
difference--excuse me--the controller today has the ability to 
control the airspace. It sees a user and says, ``No, you need 
to turn right to 270.'' Well, that is not an option in this 
instance. You can see it, but you can't manipulate it. You are 
just using it for deconfliction purposes to shrink the amount 
of airspace needed to be deconflicted.
    The follow-on is the one we need to keep working on. This 
is a good program that is going to really advance our ability 
to operate multiple users in the airspace. But we need to be 
thinking always to the next generation. I hate to use that 
term, because we are always working on it. And you always 
think, well, we have reached the next generation, we are done. 
No, it is the one after that that we need to be focusing on, as 
well.
    Mr. Woodall. Yes. I did watch ``Hidden Figures'' on the 
airplane coming up here, and I did see the Atlas heavily 
referenced there in the 1960s--I don't know what next 
generation means, in terms of Atlas, but, well, that is a 
different conversation for a different day.
    Thank you all so much for committing your time and your 
intellect to the committee today.
    And if there are no other questions from committee members, 
the committee stands adjourned.
    [Whereupon, at 11:52 a.m., the subcommittee was adjourned.]
   
   
   [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
   
</pre></body></html>
